The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436


October 15, 2012                                                           OIG-KK-016


Chairman Williamson:

This memorandum transmits the Inspector General’s summary of the top management and
performance challenges facing the Commission and briefly assesses management’s progress
in addressing these challenges.

I have identified three management and performance challenges for fiscal year 2013;
Internal Controls, Financial Management, and Using Information Technology to Improve
Staff Productivity. These challenges were identified based on work by the Office of
Inspector General, input from Commission management, and knowledge of the
Commission’s programs and operations.

Internal Controls: The Commission’s management is responsible for establishing and
maintaining a system of internal controls that can ensure effective and efficient operations,
reliable financial reporting, and compliance with laws and regulations. Recent reviews have
identified issues associated with weak or non-existent internal controls. The most
significant weaknesses identified were noncompliance with the Federal Manager’s
Financial Integrity Act and OMB Circular A-123, Management’s Responsibility for Internal
Control.

Although initially identified in the financial management area, the internal control
weaknesses appear to be a systemic problem throughout the Commission. The Commission
has a long standing culture of undocumented and informal processes to complete daily tasks.
Documented and consistent processes and procedures are necessary to provide a reasonable
level of assurance that offices are operating in an efficient and cost-effective manner.

The most significant challenge will be to manage the cultural changes associated with the
implementing new systems of internal control throughout the Commission. This will require
first line supervisors to check, inspect, or review the work of subordinates to make sure the
new procedures are being followed.
Financial Management: The Commission is responsible to ensure that managers have
access to timely, reliable, and practical information to make informed decisions. The
Commission does not have the systems or core competencies required to integrate and
coordinate budget formulation, execution, and financial reporting into a comprehensive
financial management program that provides accountability for agency funds and provides
essential data to managers for decision making purposes.

The Commission’s budget formulation and execution process is not transparent because
information on past execution is not available to decision makers. This means that decisions
impacting resource allocations for agency operations are being made without sufficient input
from key stakeholders who have the necessary information. The lack of communication
with stakeholders, documented procedures, and defined methodologies for determining
budget priorities does not provide reasonable assurance that all the Commission priorities
are being considered when budget decisions are being made.

Budget formulation, budget execution, accounting, and financial reporting should be fully
integrated and have transparent processes that promote accountability and deter potential
fraud, waste, and abuse of agency budgetary resources. The management challenge will be
to transform the current approach to financial management from an accounting exercise to a
process that provides transparency and accountability in the formulation, execution,
performance, and management of agency budgetary resources. The lack of timely and
practical financial reports deprive managers of information needed to effectively monitor the
expenditure of funds, evaluate program performance, and make informed financial decisions
on their programs and operations.

As a result of its disclaimer on the 2009 financial statements the Commission recognized the
importance and necessity of instituting a system of stronger internal controls and is
implementing corrective actions to address financial management deficiencies.
Improvements resulted in a qualified opinion on the 2010 financial statements and an
unqualified opinion on the 2011 financial statements. In addition the Commission recently
hired a Chief Financial Officer to oversee the financial management activities of the
Commission.

Using Information Technology to Improve Staff Productivity: Knowledge workers require a
stable, productive information technology platform to efficiently and effectively perform
their work. Skilled staff are expected to perform their mission whether on or off premises,
and the platform supporting their work should be resilient enough to allow work to continue
even in the absence of the primary data center.

The CIO has taken steps to prepare for an alternate data center through virtualization and
expanded bandwidth. However, the complexity introduced with virtualization and
difficulties encountered with the bandwidth upgrade must be understood and addressed to
ensure that the alternate data center can function as intended.




                                           2 of 3
Temporary outages such as full fileservers have negatively impacted staff working locally,
and a remote access platform inconsistent with the desktop experience has lowered the
productivity of Commission staff working offsite. To improve productivity, the
Commission should prioritize the appropriate skills and resources in the right areas to ensure
that both basic and enhanced services work well and contribute to a stable, consistent
environment to effectively serve its staff regardless of their location, or the situation at the
primary data center.

In closing, I would like to recognize that the Commission has made improvements in each of
these areas during this past year. The cultural challenges that I identified can only be
overcome by your continued support and emphasis on improving the integrity of the
Commission programs and operations. I will continue to work with you, the other
Commissioners, and management to reassess our goals and objectives to ensure that my
focus remains on the risks and priorities of the Commission.



Philip M. Heneghan
Inspector General




                                             3 of 3
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
